USE OF EQUITABLE SHARING 

     REVENUES BY THE 

 NEBRASKA STATE PATROL 

   LINCOLN, NEBRASKA


     U.S. Department of Justice 

   Office of the Inspector General 

            Audit Division 



    Audit Report GR-60-06-003 

         February 2, 2006

           USE OF EQUITABLE SHARING REVENUES BY 

                THE NEBRASKA STATE PATROL 

                     LINCOLN, NEBRASKA 


                           EXECUTIVE SUMMARY



      The U.S. Department of Justice (DOJ), Office of the Inspector
General, Audit Division, has completed an audit of the use of DOJ
equitable sharing revenues received by the Nebraska State Patrol
(NSP). Equitable sharing revenues represent a share of the proceeds
from the forfeiture of assets seized in the course of certain criminal
investigations.1 During the period of July 1, 2003, through June 30,
2005, the NSP was awarded DOJ equitable sharing revenues totaling
$2,579,902, and property valued at $95,031 to support law
enforcement operations.

      We reviewed the NSP’s compliance with six essential equitable
sharing guidelines and found that the NSP generally complied with the
guidelines. However, we found weaknesses in the following three
areas:

   	 The Annual Certification Reports submitted for the fiscal years
      (FY) 2004 and 2005 contained inaccurate information and were
      not complete.

   	 A new Federal Sharing Agreement was not submitted when an
      administration change occurred.

   	 We identified $115,340 in questioned costs related to
      expenditures of equitable sharing revenues for unallowable
      purposes. We also identified an additional $70,000 in
      expenditures that were unsupported.

      The results of our work are discussed in greater detail in the
Findings and Recommendations section of this report. The audit
objectives, scope, and methodology appear in Appendix I.
       1
          The DOJ asset forfeiture program has three primary goals: (1) to punish
and deter criminal activity by depriving criminals of property used or acquired
through illegal activities; (2) to enhance cooperation among foreign, federal, state,
and local law enforcement agencies through equitable sharing of assets recovered
through this program; and, as a by-product, (3) to produce revenues to enhance
forfeitures and strengthen law enforcement.
      We discussed the results of our audit with NSP officials and have
included their comments in the report, as applicable. In addition, we
provided the NSP and the DOJ, Criminal Division, with a draft copy of
our audit report and requested a formal response. The NSP provided a
response to the draft report which is shown in our report at Appendix
III. The Criminal Division did not provide a response to the draft
report.




                                 - ii -
                                  TABLE OF CONTENTS



INTRODUCTION .................................................................................. 1 


  Background ..................................................................................... 1 


FINDINGS AND RECOMMENDATIONS ..................................................... 3 


  Federal Sharing Agreements and Annual Certification Reports ................ 3 


  Accounting for Equitable Sharing Receipts............................................ 4 


  Use of Equitable Sharing Property....................................................... 5 


  Use of Equitable Sharing Funds .......................................................... 5 


  Interest Earned On Equitable Sharing Funds ........................................ 8 


  Supplanting ..................................................................................... 8 


  Views of Responsible Officials ............................................................. 8 


  Recommendations ............................................................................ 9 


APPENDIX I - OBJECTIVES, SCOPE AND METHODOLOGY ........................ 10 


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS ..................... 12 


APPENDIX III - NEBRASKA STATE PATROL RESPONSE TO THE DRAFT 

  REPORT ........................................................................................ 13 


APPENDIX IV - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO 

  CLOSE THE REPORT ....................................................................... 16 

                               INTRODUCTION


      The U.S. Department of Justice (DOJ), Office of the Inspector
General, Audit Division, has completed an audit of the use of DOJ
equitable sharing revenues by the Nebraska State Patrol (NSP). The
audit covered the period of July 1, 2003, through June 30, 2005.2
During that period, the NSP was awarded DOJ equitable sharing
revenues totaling $2,579,902, and property valued at $95,031.


Background

       The primary purpose of the DOJ Asset Forfeiture Program is to
deter crime by depriving criminals of the profit and proceeds from
illegal activities. A secondary purpose of the program is to enhance
cooperation among federal, state, and local law enforcement agencies
by sharing federal forfeiture proceeds through the DOJ equitable
sharing program. State and local law enforcement agencies may
receive equitable sharing revenues by participating directly with DOJ
agencies in joint investigations leading to the seizure or forfeiture of
property. The amount shared with the state and local law
enforcement agencies in joint investigations is based on the degree of
the agencies’ direct participation in the case. The U.S. Department of
the Treasury also administers a similar equitable sharing program.
Our audit was limited to equitable sharing revenues received by the
NSP through the DOJ equitable sharing program.

      Although several DOJ agencies are involved in various aspects of
the seizure, forfeiture, and disposition of equitable sharing revenues,
the DOJ Criminal Division, Asset Forfeiture and Money Laundering
Section (AFMLS), is responsible for issuing policy statements,
implementing governing legislation, and monitoring the use of DOJ
equitable sharing funds. Generally, the use of equitable sharing
revenues by state and local recipient agencies is limited to law
enforcement purposes. However, under certain circumstances, up to
15 percent of equitable sharing revenues may be used for the costs
associated with drug abuse treatment, drug and crime prevention
education, housing and job skills programs, or other nonprofit
community-based programs or activities. This provision generally
requires that all expenditures be made by the law enforcement agency
and does not allow for the transfer of cash.

      2
          Our audit period equated to the NSP’s 2004 and 2005 fiscal years.


                                        - 1 -

Section 4 of the March 1998 Addendum to A Guide to Equitable
Sharing of Federally Forfeited Property for State and Local Law
Enforcement Agencies, dated March 1994 (1994 Equitable Sharing
Guide), “Permissible Use Policy,” is a supplement to this provision that
states an agency may reimburse local recipients for community-based
programs and activities if preapproved by a chief law enforcement
officer, and if itemized expenditures are supported by receipts.

     The NSP has divisions throughout the state of Nebraska, and its
headquarters are located in Lincoln. The NSP’s approved budgets
were $43.43 million in FY 2004 and $43.93 million in FY 2005.




                                  - 2 -

              FINDINGS AND RECOMMENDATIONS


      The NSP complied with equitable sharing guidelines with
      respect to accounting for equitable sharing receipts, use of
      equitable sharing property, interest earned on equitable
      sharing funds, and nonsupplanting requirements.
      However, we found weaknesses related to the NSP’s
      Annual Certification Reports and Federal Sharing
      Agreements, and the accounting for and use of equitable
      sharing revenues. Overall, we identified $185,340 in
      dollar-related findings, which is approximately 7.2 percent
      of total equitable sharing revenues awarded to the NSP
      during FYs 2004 and 2005.


Federal Sharing Agreements and Annual Certification Reports

       The 1998 Addendum to the 1994 Equitable Sharing Agreement
requires that any state or local law enforcement agency that received
forfeited cash, property, or proceeds as a result of a federal forfeiture
shall submit a Federal Sharing Agreement and an Annual Certification
Report. The submission of the agreements and reports is a
prerequisite to the approval of any equitable sharing request.
Noncompliance may result in the denial of the agency’s sharing
request.

       The Federal Sharing Agreement must be submitted every
3 years on or before October 1. The agreement must be signed by the
head of the law enforcement agency and a designated official of the
local governing body. If a change in administration occurs at the state
or local law enforcement agency or its governing body within the
3-year period, the requesting agency must submit a new agreement.
By signing the agreement, the signatories agree to be bound by the
statutes and guidelines that regulate the equitable sharing program
and certify that the law enforcement agency will comply with these
guidelines and statutes.

      The Annual Certification Report is due 60 days after the close of
the requesting agency’s fiscal year. The Annual Certification Report
must also be signed by the head of the law enforcement agency and a
designated official of the local governing body. By signing the report,



                                   - 3 -

the signatories certify that the accounting of funds received and spent
by the law enforcement agency is accurate and in compliance with the
guidelines and statutes that govern the equitable sharing program.

      We tested compliance with the Federal Sharing Agreement and
Annual Certification Report requirements to determine if the required
agreements and reports were submitted, complete, accurate, and
signed by the appropriate officials. Our testing determined that the
NSP generally submitted reports in a timely manner and were signed
by the appropriate officials. However, there was a significant change
in the administration at both the state and local law enforcement
agency levels in 2005 and the requesting agency did not submit a new
agreement, as required.

      We also found that the Annual Certification Reports were not
always complete or accurate. Budgeted dollars, and tangible property
received, are detailed below.

  	 The actual budgets provided by NSP officials did not reconcile to
     the budgeted numbers reported on lines o through r of both the
     FY 2004 and FY 2005 Annual Certification Reports.

  	 The NSP received property in FYs 2004 and 2005 valued at a
     total of $95,031, but failed to report this property on line 9 of its
     Annual Certification Reports.

      NSP officials stated that the Annual Certification Reports were
prepared with preliminary budget figures, rather than the figures from
the official, adopted budgets. The NSP stated that they would include
the total value of shared property on line 9 of future reports and
mentioned that they would submit a new Federal Sharing Agreement
signed by the new administration.


Accounting for Equitable Sharing Receipts

      The 1994 Equitable Sharing Guide requires that all participating
state and local law enforcement agencies implement standard
accounting procedures to track equitable sharing revenues and
property. We reviewed the NSP’s procedures for tracking equitable
sharing requests against sharing receipts, reconciled the agency’s
accounting records to DOJ records of equitable sharing funds, and
tested a judgmental sample of 15 equitable sharing receipts to



                                  - 4 -

determine if the funds were properly accounted for and deposited in a
timely manner.

      Based on our review, we determined that all of the sampled
equitable sharing revenues received by the NSP during FYs 2004 and
2005 were accounted for in accordance with the guidelines.


Use of Equitable Sharing Property

      The 1994 Equitable Sharing Guide requires that any forfeited
tangible property transferred to a state or local agency for official use
must be used for law enforcement purposes only. Further, vehicles
and other tangible property transferred for official law enforcement use
must be so used for at least 2 years. However, if the property
becomes unsuitable for such stated purposes before the end of the
2-year period, it may be sold. We reviewed the NSP’s inventory of
equitable sharing property from FYs 2004 and 2005, to determine if
property was accounted for properly, used for law enforcement
purposes, and maintained for the required 2-year period.

      During FYs 2004 and 2005, the NSP received 10 equitable
sharing vehicles valued at $95,031, to be placed into official law
enforcement use. We determined that 8 assets were generally
accounted for properly, were used for law enforcement purposes, and
were generally maintained for the required 2-year period or were still
being used within the 2-year period. Two vehicles were still in the
United States Marshals Service custody for storage until those vehicles
could be transferred to the NSP and added to its inventory.


Use of Equitable Sharing Funds

      Generally, the 1994 Equitable Sharing Guide requires that the
use of equitable sharing funds received by state and local recipient
agencies be limited to law enforcement purposes. However, under
certain circumstances, up to 15 percent of equitable sharing revenues
may be used for the costs associated with drug abuse treatment, drug
and crime prevention education, housing and job skills programs, or
other nonprofit community-based programs or activities. The 1998
Addendum to the 1994 Equitable Sharing Guide requires that all
expenditures be made by the law enforcement agency and does not
allow for the transfer of cash. Itemized expenses must be supported



                                  - 5 -

by receipts and previously approved by the chief law enforcement
officer.

      During FYs 2004 and 2005, the NSP spent $2,694,976 of its DOJ
equitable sharing revenues. We examined 70 transactions totaling
$1,123,110 (41.7 percent of the equitable sharing revenues used).
We tested these transactions to determine if the expenditures were
supported by adequate documentation, whether equipment purchases
were properly included on the agency’s inventory and used for law
enforcement purposes, and if expenditures were for an allowable use.
We determined that the transactions were generally supported by
adequate documentation, equipment purchased was used for law
enforcement purposes, and the expenditures were generally allowable
and in accordance with the guidelines.

     However, we identified $185,340 in questioned costs as
unsupported or unallowable. Of this amount, NSP officials remedied
$65,000 by providing us with additional supporting documentation
subsequent to our fieldwork, leaving questioned costs totaling
$120,340. The following is a summary of these findings:

  	 The NSP paid $65,000 for computers for which supporting
     documentation was not adequate. The NSP officials agreed that
     the documentation attached to the disbursement records did not
     support the payment. Subsequent to our fieldwork, the NSP
     provided us with documentation that remedied this unsupported
     cost.

  	 The NSP paid $5,000 for a Methamphetamine Impact Awareness
     Project for which the supporting documentation was not
     adequate. The NSP officials agreed that the documentation
     attached to the Methamphetamine Impact Awareness Project did
     not support that payment. They agreed to try to locate
     documentation to support that payment, but had not provided us
     that support at the time our fieldwork concluded. As a result, we
     are questioning the entire $5,000 as unsupported.

  	 The NSP paid $39,340 to an architecture firm to create a
     renovation plan, including a climate controlled environment for
     its computer servers, located in the basement of the NSP
     headquarter building located in Lincoln, Nebraska. However, the
     plan was abandoned when the Fire Marshal did not approve the
     plan. The NSP agreed that the $39,340 renovation plan was
     never undertaken; however, they stated that a supplemental


                                - 6 -

      additional plan was being considered. Because the funds were
      spent and the renovation never occurred, we are questioning the
      entire $39,340 as being unallowable.

   	 As illustrated in the following table, the NSP transferred cash of
      $76,000 to nonprofit organizations:

  Cash Transferred from the NSP to Nonprofit Organizations
 Transaction                                      Amount
                           Recipient
    Date                                        Transferred
             Nebraska Domestic Sexual Assault
 10/02/2003                                      $25,000
             Coalition
 08/06/2003 Family Action Network                $10,000
 11/18/2003 Child Advocacy Center                $10,000
 07/06/2004 Child Advocacy Center                $10,000
 02/11/2005 University of Nebraska               $10,000
             Faith Regional Health Services
 02/01/2005                                       $6,000
             (FRHS)
             Native American Teachings
 08/01/2003                                       $5,000
             “Straight Arrow” Program
Total                                           $76,000
Source: Expenditure documents provided by the NSP

      These payments were made without formal approval from the
      chief law enforcement officer connecting the nonprofit
      organization’s work to the effort of the NSP. The 1998
      Addendum to the 1994 Equitable Sharing Guide, Section 4
      Permissible Use Policy, states that costs are allowable, “which
      are formally approved by the chief law enforcement officer as
      being supportive of and consistent with a law enforcement effort,
      policy, and/or initiative. This provision requires that all
      expenditures be made by the law enforcement agency and does
      not allow for the transfer of cash.” The officials also believed
      that the expenses associated with the cash transfers were
      allowable because they believed that the guidelines preventing
      cash transfers did not go into effect until the beginning of 2005,
      when in fact they went into effect in 1998. For the $6,000 paid
      to the Faith Regional Health Services (FRHS) on February 1,
      2005, a portion of the guidelines were followed. The payment
      was on a reimbursement basis, but the chief law enforcement
      officer did not formally demonstrate the connection between the
      FRHS and efforts of the NSP. The NSP understands the 1994
      Equitable Sharing Guide requirements and will adhere to them in



                                     - 7 -

      the future. As a result, we are questioning the entire $76,000 as
      being unallowable.


Interest Earned On Equitable Sharing Funds

      The 1994 Equitable Sharing Guide requires that interest earned
on equitable sharing funds is subject to the same use restrictions as
equitable sharing funds. We determined whether equitable sharing
funds were placed in interest bearing accounts, verified the
calculations for the amount of interest earned, and determined
whether the interest earned was accurately added to the equitable
sharing fund balance.

      During FYs 2004 and 2005, the NSP earned $251,498 in interest
on equitable sharing funds, which were properly invested in an interest
bearing account. All interest earned by the NSP was accounted for
properly, recorded separately, and accurately added to the equitable
sharing fund balance.


Supplanting

       Pursuant to the 1994 Equitable Sharing Guide, equitable sharing
revenues must be used to increase or supplement the resources of the
receiving state or local law enforcement agency. Equitable sharing
funds shall not be used to replace or supplant the resources of the
recipient. To test whether equitable sharing funds were used to
supplement rather than supplant local funding we interviewed local
officials and reviewed the agency’s budgets for FYs 2003, 2004, 2005,
and 2006.

      Based on the results of our review, we did not find any indication
that the NSP was using equitable sharing funds to supplant local
funding. Local funding for the NSP increased in each of the fiscal years
reviewed from $42.39 million in FY 2003, to $46.20 million in FY 2006.


Views of Responsible Officials

      We discussed the results of our review with NSP officials
throughout the audit and at a formal exit conference. Their comments
on specific issues have been included in the appropriate sections of the
report.


                                 - 8 -

Recommendations

      We recommend that the Criminal Division:

1.	   Ensure that the NSP corrects its FY 2004 and FY 2005 Annual
      Certification Reports to accurately reflect correct budget figures,
      and values of assets received.

2.	   Ensure that the NSP submits a new Federal Sharing Agreement
      to reflect the change of administration.

3.	   Remedy the $120,340 of questioned costs related to unallowable
      or unsupported expenditures.




                                  - 9 -

                                                         APPENDIX I


          OBJECTIVES, SCOPE AND METHODOLOGY

      The objectives of the audit were to assess whether equitable
sharing cash and property received by the NSP were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines. We conducted our audit in accordance with
Government Auditing Standards issued by the Comptroller General of
the United States and included such tests of the records and
procedures that we considered necessary to accomplish the audit
objectives. Our audit covered the period of July 1, 2003, through
June 30, 2005.

       In conducting our audit, we relied on computer-processed data
contained in the DOJ Consolidated Asset Tracking System (CATS) for
the purpose of determining equitable sharing revenues and property
awarded to the NSP during the audit period. We did not establish the
reliability of the data contained in the CATS system as a whole;
however, this data was used with other available evidence, and we
believe the opinions, conclusions and recommendations included is this
report are valid.

      We performed audit work at the NSP headquarters offices
located in Lincoln, Nebraska. To accomplish the objectives of the
audit, we interviewed NSP officials, examined records related to
revenues, interest earned, and expenditures of DOJ equitable sharing
revenues and property received by the NSP. In addition, we reviewed
laws, regulations and guidelines governing the accounting for and use
of DOJ equitable sharing receipts, which included the three major
guidelines issued by the DOJ:

  	 Accounting for Federal Asset Forfeiture Funds, A Guide for State
     and Local Law Enforcement Agencies, dated July 1991;

  	 A Guide to Equitable Sharing of Federally Forfeited Property for
     State and Local Law Enforcement Agencies, dated March 1994;
     and

  	 Addendum to A Guide to Equitable Sharing of Federally Forfeited
     Property for State and Local Law Enforcement Agencies, dated
     March 1998.



                                - 10 -
       Our audit specifically evaluated the NSP’s compliance with six
essential equitable sharing guidelines, as detailed in the body of this
report. We did not test overall internal controls and compliance with
laws and regulations for the State of Nebraska or the NSP as a whole.
Rather, we relied on the Single Audit conducted by independent
Certified Public Accountants pursuant to the provisions of Office of
Management and Budget Circular A-133. We reviewed the results of
the Single Audit of the State of Nebraska for the fiscal year ended
June 30, 2004. We reviewed the independent auditor’s assessment,
which disclosed one reportable condition relating to internal controls
over financial reporting for the State of Nebraska, but noted no
internal control matters considered to be material weaknesses and no
significant issues of noncompliance regarding the NSP.




                                 - 11 -
                                                                           APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS


 QUESTIONED COSTS                                                    Amount                  Page

 Unallowable Expenditures                                            $115,340                6-7

 Unsupported Expenditures                                              $5,000                 6


     Total Questioned Costs                                          $120,340




Questioned Costs are monies spent that, at the time of the audit, do not comply with legal
requirements, or are unsupported, or are unnecessary or unreasonable. They can be
recoverable or nonrecoverable.




                                           - 12 -
                                                                               APPENDIX III

                                                                                           





                                                                        STATE OF NEBRASKA
      Dave HeIneman
      Governor                                                                        NEBAASKA STATE PAni<x.
                                                                                         CoJoneI Bryan J. Yuma
                                                                                                  Superintendent
                                                                                                   P.O. Box 94907
                                                                                      Lip(oIn, Nebrask!l68509-4907
                                                                                             Phone: (402) 471-4545

November 7, 2005



u.s. Department of Justice
Office of the Inspector General
David M. Sheeren, Regional Audit Manager
1120 Lincoln, Room 1500
Denver, Co. 80203

Dear Mr. Sheeren:

The following infonnation is being provided in response to the recommendations
included in the draft audit report entitled Use of Equitable Sharing Revenues by the
Nebraska State Patrol (NSP).

The NSP is correcting the FY2004 and FY2005 Annual Certification Reports and these
reports will be submitted upon receiving signatures from the respective authorities.

The NSP has submitted new Federal Sharing Agreements to reflect the change of
administration.

The NSP requested follow-up documentation by each of the entities noted in the report to
provide justification and documentation of the funds transferred to them and
subsequently expended by each of the entities.

The following is a listing of the entities involved and the infonnation received in
response to our request.

       Nebraska Domestic Sexual Assault Coalition (NDSAC) - provided a copy of the
       "Spanish Hotline Report" detailing the expenditures incurred. A copy of this
       report is attached. Also attached is a copy of the correspondence between the
       NSP and the NDSAC which shows that the chief law enforcement officer
       approved these expenditures and connected the nonprofit organizations work to
       the effort of the NSP.




                 AN INTERNATIONAlLY ACCRfDrrED lAW ENFORCEMENT AGENCY
                             A.. Equo/Oppommily/A/fi~A<:Iion~
                                       _ _ oot "' '''' _ _


                                         - 13 -
David M. Sheeren, Regional Audit Manager
November 7, 2005
Page: 2

       Family Action Network - provided information concerning the number of cases in
       which the NSP was involved. A description of the Family Advocacy Network is
       attached indicating the relationship with the NSP.

       Lancaster County Child Advocacy Center - The NSP actually entered into a
       contract with this entity. The contract defines the relationship between the entity
       and the NSP. Documentation of the expenses incurred will be forthcoming, as
       their director will be unavailable until November lOth. A copy of the contract is
       attached. Two payments were made to this entity and both contracts were
       covered by contract.

       University of Nebraska - The University of Nebraska Foundation (UNL) has not
       expended the funds they were provided. The NSP has requested that the UNL
       Foundation return the unexpended funds with the agreement that they would be
       provided upon fulfilling the requirements explained in this draft audit report.

       Faith Regional Services - the correspondence with the Faith Regional Services
       indicate the relationship between the NSP and this entity.

       The Native American Teachings "Straight Arrow" Program - this entity will be
       providing documentation concerning their program.

       The questioned payment to the architecture firm should be an allowable expense.
       The NSP entered into an agreement with the firm with the full intention of
       completing the renovation plan, until numerous problems were encountered with
       the approval of the plan through the State Fire Marshall's Office. The NSP feels
       that the structural problems which resulted in the abandorunent of the renovation
       plan were beyond the responsibility of the NSP, and that the costs should be
       allowed.

The NSP was not aware of the existence of the "March 1998 Addendum to A Guide to
Equirable Sharing of Federally Forfeited Property for Stare and Local Law Enforcement
Agencies. " The orange colored guides do not reflect the effective dates of any changes or
revisions included within the guides. They are all simply marked as "MARCH 1994."
This causes considerable confusion in attempting to comply with the guidelines which
change without adequate notice to the recipients.


The NSP believes that the documentation provided shows clearly that the agency
complied with the intent of the President'S initiative to promote additional emphasis on
reducing the demand for controlled substances.




                                         - 14 -
David M. Sheeren, Regional Audit Manager
November 7, 2005
Page: 3

The NSP further believes that the correspondence with these different agencies indicates
the formal approval of the chief law enforcement officer connecting the nonprofit
organization's work to the effort of the agency. Copies of this correspondence and/or
contracts are also provided.

Sinc~_ __

 ~~                      :>
Bryan J. Tuma, Colonel
Superintendent of Law Enforcement and Public Safety

cc:    John Little, Accounting

Enclosures:    Spanish Hotline Report
               Letter to Governor Mike Johanns reference Nebraska Domestic Violence
                       Sexual Assault Coalition Statewide Spanish Crisis Line
               Nebraska Domestic Violence Sexual Assault Coalition Summary
               Letter from Nebraska Domestic Violence Sexual Assault Coalition
               Fax from Family Advocacy Network
               Email to John Little reference request for Family Advocacy Network
                       Funding
               Letter to Governor Mike Johanns reference Public Safety Cash Fund
               Letter from Child Advocacy Center reference proposed contract between
               Lancaster County and Child Advocacy Center and Agreement
               Letter from Keith Miles reference NSP request for information on
                       Payment
               Letter to Cassia Spohn from Lt. Colonel Thorson reference check payable
                       to University of Nebraska Foundation




                                        - 15 -
                                                       APPENDIX IV


            OFFICE OF THE INSPECTOR GENERAL 

                     AUDIT DIVISION 

               ANALYSIS AND SUMMARY OF 

           ACTIONS NECESSARY TO CLOSE REPORT



      We received a response to our draft report from the NSP. The
Criminal Division did not respond. The response from the NSP appears
in Appendix III.

      In its response, the NSP agreed with two of our audit
recommendations, and described corrective actions it has taken or
intends to take to close those recommendations. The NSP response
indicated disagreement with Recommendation No. 3, indicating
concern with all of the $120,340 of the questioned costs detailed in
our draft report.

       Our report provides details for the costs questioned regarding
funds transferred to nonprofit organizations. As stated in the report,
these payments were made without formal approval from the chief law
enforcement officer connecting the nonprofit organizations’ work to the
effort of the NSP and all expenditures must be made by the law
enforcement agency and not through a transfer of funds to the
nonprofit organization. The NSP response provided documentation
including the approval by the chief law enforcement officer and
connection of the work of the nonprofits with the NSP; however, the
funds are still questioned because the expenditures were not made by
the NSP. One expenditure from the previously listed questioned costs
was properly expended by the NSP, but the chief law enforcement
officer did not provide written confirmation that the Faith Regional
Health Services work was in support of the NSP activities. Funds were
also spent to plan a renovation at the NSP headquarters; however, the
renovation never took place and those funds are being questioned.

     Therefore, the following is the current status of our
recommendations and the actions necessary for closure:


   1. Resolved. NSP provided documentation regarding its FY 2004
      and FY 2005 Annual Certification Reports, however; these
      reports do not accurately reflect the total law enforcement


                                 - 16 -
      budget amounts for the same period. Additionally, the amounts
      listed for Appraisal Value of Other Assets Received do not match
      the USMS valuation of the vehicles. This recommendation can
      be closed when NSP provides corrected FY 2004 and FY 2005
      Annual Certification Reports.

2.	   Closed.

3.	   Unresolved. Documentation provided by the NSP demonstrates
      written approval from a law enforcement official; however, the
      equitable sharing funds were transferred directly to nonprofit
      agencies. The 1998 Addendum to the 1994 Equitable Sharing
      Guide, Section 4 Permissible Use Policy, states that costs are
      allowable, “which are formally approved by the chief law
      enforcement officer as being supportive of and consistent with a
      law enforcement effort, policy, and/or initiative. This provision
      requires that all expenditures be made by the law enforcement
      agency and does not allow for the transfer of cash.” One
      expenditure from the previously listed questioned costs was
      properly expended by the NSP, but the chief law enforcement
      officer did not provide written confirmation that the Faith
      Regional Health Services work was in support of the NSP
      activities. In addition, although NSP provided information
      regarding the expenditure of funds for planning of a building
      renovation, we need additional information regarding this
      process. This information should include a description of
      planning activity focusing on the feasibility of the renovation, the
      architecture firms’ conclusion on the feasibility of the project,
      any policies or procedures describing standard practices for
      renovation projects, and the Fire Marshal’s rejection notification.
      This recommendation can be closed when the Criminal Division
      provides a remedy for the questioned costs.




                                  - 17 -
